No. 19-454
IN THE SUPREME COURT OF THE UNITED STATES
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS
v.
COMMONWEALTH OF PENNSYLVANIA, ET AL.

It is hereby certified that all parties required to be served have been served with
copies of the BRIEF FOR NICHOLAS BAGLEY AND SAMUEL L. BRAY AS
AMICI CURIAE SUPPORTING PETITIONERS, via e-mail and first-class mail,
postage prepaid, this 9th day of March, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,803 words, excluding the parts of the brief that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 9, 2020.
.

DONALD BURKE
Counsel of Record
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP
2000 K Street, NW
Washington, DC 20006
(202) 775-4500
dburke@robbinsrussell.com

19-454
TRUMP, DONALD, J., PRESIDENT OF THE UNITED
STATES, ET AL.
PENNSYLVANIA, ET AL.
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Mark J. Rienzi
The Becket Fund For Religious Liberty
1200 New Hampshire Avenue, NW
Suite 700
Washington, DC 20036
202-955-0095
mrienzi@Becketfund.Org
Michael J. Fischer
Pennsylvania Office of Attorney General
1600 Arch St.
Suite 300
Philadelphia, PA 19103
mfischer@attorneygeneral.gov

